Nos. 19-251 & 19-255
IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION, Petitioner,
v.
MATTHEW RODRIQUEZ, Respondent.
THOMAS MORE LAW CENTER, Petitioner,
v.
MATTHEW RODRIQUEZ, Respondent.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF CAMPAIGN LEGAL CENTER,
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, COMMON CAUSE, AND LEAGUE
OF WOMEN VOTERS OF CALIFORNIA AS AMICI
CURIAE IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the corrected Brief
of Amici Curiae Campaign Legal Center, Citizens for Responsibility and Ethics in
Washington, Common Cause, and League of Women Voters of California referenced
above contains 7,915 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
Executed on April 14, 2021.
______________________________
Tara Malloy
Campaign Legal Center
1101 14th St. NW, Suite 400
Washington, DC 20005
(202) 736-2200
tmalloy@campaignlegalcenter.org
Counsel for Amici Curiae

